Case: 20-1363

Document: 00117714983

Page: 1

Date Filed: 03/08/2021

Entry ID: 6407014

United States Court of Appeals
For the First Circuit
No. 20-1363
VEENA SHARMA,
Plaintiff - Appellant,
v.
\

DOMENIC S. TERRANOVA; ANDOVER GARDENS CONDOMINIUM TRUST; MICHAEL
B. FEINMAN; PETER J. CARUSO, SR.,
Defendants - Appellees.

Before
Thompson, Kayatta and Barron,
Circuit Judges.
JUDGMENT
Entered: March 8, 2021
Pro se plaintiff-appellant Veena Sharma appeals from a judgment of the district court
dismissing her complaint against defendants Peter Caruso, Sr., Domenic Terranova, Michael
Feinman, and Andover Gardens Condominium Trust on the grounds that the claims set out therein,
even when construed in the light most favorable to appellant as a pro se litigant, failed to comply
with the applicable statutes of limitations and were further barred under the doctrine of res judicata.
As an initial matter, appellant's motion for entry of default judgment is denied. See Fed. R.
App. P. 31(c). We assume, arguendo, that de novo review applies to the screening dismissal. Even
so, after our own careful review of appellant's submissions and the record below, we affirm the
judgment of dismissal, specifically on statute of limitations grounds. Appellant's contention that a
ten-year "federal" statute of limitations applies to her claims is unavailing. Appellant has not
identified a specific statute of limitations that applies, and, with respect to the federal criminal
statutes she cites, 18U.S.C. §1344, 18U.S.C. §1341, and 18U.S.C. §1343, appellant has failed to
explain how those statutes might create a right of action for a private civil litigant. As the district
court correctly concluded, whether construed as sounding in tort, contract, or consumer protection,
appellant's claims were clearly time-barred. See Mass. Gen. Laws ch. 260, §§ 2A (three-year
statute of limitations for tort claims), 5A (four-year statute of limitations for consumer claims
under chapter 93 A), and 2 (six-year statute of limitations for breach of contract claims).

Case: 20-1363

Document: 00117714983

Page: 2

Date Filed: 03/08/2021

Entry ID: 6407014

Finally, we discern no error and no abuse of discretion in the district court's decision to
dismiss without first sua sponte providing appellant leave to amend her complaint; as the claims
were clearly time-barred based on appellant's own factual allegations, amendment would have
been futile. See, e.g.. Gonzalez-Gonzalez v. United States. 257 F.3d 31, 37 (1st Cir. 2001)(sua
sponte dismissal without leave to amend is appropriate "where the allegations in the complaint,
viewed in the light most favorable to plaintiff, are patently meritless and beyond all hope of
redemption, i.e., where it is crystal clear that the plaintiff cannot prevail and that amending the
complaint would be futile").
Accordingly, the judgment of the district court is affirmed. See 1 st Cir. R. 27.0(c).

By the Court:
Maria R. Hamilton, Clerk

cc:
Veena Sharma
Domenic S. Terranova
Michael B. Feinman
Peter J. Caruso Sr.

Case l:19-cv-12220-FDS Document 11 Filed 02/25/20 Page 1 of 11

UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
VEENA SHARMA,
Plaintiff,
v.
SANTANDER BANK,
Defendant.
VEENA SHARMA,
Plaintiff,
v.
FIDELITY INVESTMENTS,
Defendant.

)
)
)
)
)
)
)
)
)

Civil Action No.
19-12184-FDS

)
)
)
)
)
)
)
)
)

Civil Action No.
19-12186-FDS

1

i

i

VEENA SHARMA,
Plaintiff,
v.

)
)
)
)
)
)

Civil Action No.
19-12220-FDS

ATTORNEY DOMENIC S. TERRANOVA, )
et al.,
)
Defendants.

)
)

MEMORANDUM AND ORDER
SAYLOR, J.
In October 2019, plaintiff Veena Sharma filed these three civil actions, all of which are
related to three earlier actions in Essex Superior Court to which she was a party. She is

3b

- C&-'

Case l:19-cv-12220-FDS Document 11 Filed 02/25/20 Page 2 of 11

proceeding pro se and in forma pauperis.
As set forth below, in 2010, the Trustees of the Andover Gardens Condominium Trust
procured a judgment in Essex Superior Court against plaintiff for unpaid condominium fees.
Shortly thereafter, the Trustees commenced a second action against her for the appointment of a
receiver. In February 2011, the court appointed a receiver, and, on January 26, 2012, he filed a
final account and asked to be discharged. Plaintiff (who was represented by counsel) and the
Trustees assented to the motion and the case was dismissed.
On November 13, 2018, plaintiff commenced an action in Superior Court against the
Trustees. That action alleged that in June 2011 she had learned that the Trustees had unlawfully
withdrawn funds totaling $192,000 from her accounts at Sovereign Bank (now known as
Santander Bank) and Fidelity Investments. Applying the Massachusetts three-year tort statute of
limitations, the court dismissed the action as time-barred.
In these three federal actions, plaintiff now seeks damages based on claims that
Santander, Fidelity, the Trust, the Trust’s attorney, the receiver, and her own attorney committed
the federal crimes of bank embezzlement, mail fraud, wire fraud, and bank fraud.
Summonses have not issued pending the court’s review of the complaints. The court may
dismiss any complaint brought by a party proceeding in forma pauperis if it is malicious,
frivolous, seeks damages against a party immune from such relief, or fails to state a claim upon
which relief can be granted. See 28 U.S.C. § 1915(e)(2). In conducting its review, the court
must construe the complaint liberally because plaintiff is proceeding pro se. A federal court also
has an obligation to inquire sua sponte into its own jurisdiction. See United States v. Univ. of
Mass., Worcester, 812 F.3d 35, 44 (1st Cir. 2016).
For the reasons stated below, it is at least doubtful that the court has subject-matter

2
-

■ jpa

Case l:19-cv-12220-FDS Document 11 Filed 02/25/20 Page 3 of 11

jurisdiction, because the claims are “insubstantial, implausible,... [and] otherwise completely
devoid of merit.” Oneida Indian Nation ofN.Y. v. County of Oneida, 414 U.S. 661, 666 (1974).
But because such jurisdiction appears to exist, the cases will be dismissed for failure to state a
claim because they are barred by the statute of limitations and principles of claim preclusion.
I.

Factual Background
A.

Prior State Actions

On October 9, 2008, the Trustees initiated an action against plaintiff in Essex Superior
Court seeking unpaid condominium common charges. See Trustees of Andover Gardens Condo
Trust v. Sharma, 0877CV02005 (Essex Superior Ct., Mass.) {Trustees of Andover Gardens
Condo Trust v. Sharma 7”).1 On the docket, the lawsuit is characterized as one for
“Condominium Lien & Charges.” Domenic S. Terranova was the attorney for the Trustees.
Plaintiff appeared pro se. In June 2010, the Superior Court granted the Trustees’ motion for
summary judgment and entered judgment in its favor for $18,059 in unpaid common expenses.
On September 2, 2010, the Trustees commenced a second action against plaintiff, seeking
the appointment of a receiver. See Trustees ofAndover Gardens Condo Trust v. Sharma,
1077CV01869 (Essex Superior Ct., Mass.) (“Trustees ofAndover Gardens Condo Trust v.
Sharma IF). Attorney Terranova again represented the Trustees. On January 19, 2011, after
plaintiff had defaulted on the complaint, attorney Peter J. Caruso entered an appearance on their
behalf. On February 10, 2011, the court appointed Michael B. Feinman, Esq., as a receiver.
Attorney Feinman filed an Amended Final Account and Request for Dismissal on January 26,
2012. The following day, the court allowed the motion, noting that the parties had assented to it.

5 The court takes judicial notice of the three prior state cases between plaintiff and the Trustees, including
the proceedings and orders on the public docket. With one exception, the quotations in this section are taken from
the dockets of the state-court actions. These dockets are available to the public through www.masscourts.org (last
visited Feb. 10,2020).

3

<r~ 'it3?'

Case l:19-cv-12220-FDS Document 11 Filed 02/25/20 Page 4 of 11

The docket text does not provide any specifics of the amended final account.
On November 13, 2018, plaintiff, proceeding pro se, commenced an action against the
Trustees. See Sharmav. Trustees ofAndover Gardens Condo Trust, 1877CV01631 (Essex
Superior Ct., Mass.). In that complaint, plaintiff alleged that “she came to know on June 3, 2011
that Trustees of Andover Garden Condominium Trust ha[d] unlawfully managed to withdraw
approximately $192,000 dollars from [her] accounts at Sovereign Bank [now Santander] and
Fidelity Investments for [the] unpaid condominium fee of approximately $18,059.33 without my
permission.” Compl. f 2, Sharma v. Andover Gardens Condo Trust?
On June 11,2019, the Trustees, represented by attorney Terranova, filed a motion to
dismiss. According to the docket, the Trustees argued that “part of this action alleging
conversion of the plaintiffs’ funds from Sovereign [now Santander] Bank and Fidelity
Investments as the claim for conversion is time barred under [the] statute of limitations, MGL C.
260, sections 2A and 4.” On September 20, 2019, in an endorsed order set forth on the docket of
the case, the court granted the Trustees’ motion to dismiss the complaint as time-barred.
B.

Actions Pending in this Court
1.

Sharma v. Santander Bank* C.A. No. 19-12184-FDS

The complaint in Sharma v. Santander Bank, C.A. No. 19-12184-FDS, alleges that in
2011, plaintiff discovered that all her funds in an account with Santander Bank were missing.
Santander is the only defendant. The complaint alleges that despite her several inquiries to
Santander concerning the disappearance of her funds, the bank was not able or refused to
disclose to her what had happened to the funds in her account. It further alleges that in 2017, she

2 Plaintiffs one-page complaint in Sharma v. Andover Gardens Condo Trust, 1877CV01631 (Essex
Superior Ct., Mass.), was included as an exhibit to Santander Bank’s memorandum in support of its motion to
dismiss. See Sharma v. Santander Bank, C.A. No. 19-12184-FDS, Compl. Ex. 1, at 1.

4

3b

Case l:19-cv-12220-FDS Document'll Filed 02/25/20 Page 5 of 11

discovered that Santander had issued a check from her account in the amount of $28,069.09 to
attorney Michael Feinman, and that attorney Feinman had submitted a letter to the bank “with
Falsified information and false pretense.” Compl. at 6 (as in original). The complaint alleges
that “Attorney Feinman and Santander Bank committed wire and mail fraud by intercepting
[plaintiffs] mail to obtain information on my bank accounts and identify theft.” Id. at 7.
The complaint invokes this court’s federal-question jurisdiction. Id. at 3; see 28 U.S.C.
§ 1331 (providing that “[t]he [federal] district courts shall have original jurisdiction of all civil
actions arising under the Constitution, laws, or treaties of the United States”). It purports to
assert a claim under 18 U.S.C. § 656, which provides criminal penalties for theft, embezzlement,
or misapplication of assets by a bank officer or employee, as the basis for that jurisdiction. It
seeks $10.5 million in damages.
Although a summons has not issued in the case, on November 26,2019, counsel for
Santander appeared and filed a motion for dismiss for failure to state a claim upon which relief
can be granted. Santander argues that plaintiffs claims are time-barred and barred by the
doctrine of claim preclusion. Plaintiff did not file an opposition to the motion to dismiss.
2.

Sharma v. Fidelity Investments. C.A. No. 19-12186-FDS

The complaint in Sharma v. Fidelity Investments, C.A. No. 19-12186-FDS, alleges that
attorney Feinman and Fidelity “conspired and committed bank fraud by getting hold of
[plaintiffs] account and conversion of [her] stocks at Fidelity Investments” without her
knowledge or authorization. Compl. at 6. The complaint alleges that she called Fidelity in 2011
to check on the status of her stocks and was informed that she did not have any. Fidelity
allegedly represented to plaintiff that it did not know what happened to her stocks. According to
the complaint, after she reported the matter to the Andover Police Department, three detectives

5

- 33'

Case l:19-cv-12220-FDS Document 11 Filed 02/25/20 Page 6 of 11

worked with her on the matter for two weeks but were unable to make any progress.
The complaint further alleges that in 2017 plaintiff made a complaint against attorney
Feinman with the Board of Bar Overseers. It alleges that, in response to her complaint, “attorney
Feinman provided 40-50 pages of documents] to me which included copies of three checks
issued by Fidelity Investments to attorney Feinman in the amounts of approximately $166,000.”
Id. at 7. It further alleges that attorney Feinman “got this money on the basis of falsified
documents.” Id.
As in the complaint against Santander, the complaint purports to assert claims under 18
U.S.C. § 656 and invokes federal-question jurisdiction. It seeks $11 million in damages “for
participating in these federal crimes (mail, wire, and bank fraud).” Id. at 8. Fidelity is the only
defendant.

3.

Sharma v. Terranova. et al.. C.A. No. 19-12220-FDS

The third action is against attorney Feinman, attorney Terranova, attorney Peter Caruso,
and the Andover Gardens Condominium Trust.3 The complaint alleges that these parties
“conspired and defrauded” Fidelity and Santander to steal a total of $206,000 of plaintiff s
money from those institutions in 2011. Compl. at 6. It further alleges that the Trust and the
three defendant attorneys “intercepted [her] mail to obtain information on [her] bank accounts,
investments, real estate including [her] primary residence and rental properties, [her] goods in
the house, and other personal information for more than a year.” Id. It further alleges that

3 The complaint identifies “Andover Gardens Condominium Trust” as a defendant. However, subject to an
exception not applicable here, under Massachusetts law “a trust is not a legal entity which can be sued directly.”
Morrison v. Lennett, 415 Mass. 857, 859-60 & n.7 (1993); see also Keefan v. Pellerin, 76 Mass. App. Ct. 186, 187
n.2 (2010) (citing Morrison and noting that, in lawsuit brought against a condominium trust, “the trust was not the
proper party to sue”); M.G.L. ch. 182, § 1 (defining “trust” for purposes of M.G.L. ch. 182 as a trust “operating
under a written instrument or declaration of trust, the beneficial interest under which is divided into transferable
certificates of participation or shares.. ..”); M.G.L. ch. 182, § 6 (providing that a “trust” may be sued).
6

4f

i?-

Case l:19-cv-12220-FDS Document 11 Filed 02/25/20 Page 7 of 11

attorney Terranova represented the Trustees in Trustees of Andover Gardens Condo Trust v.
Sharma II without their authorization. According to plaintiff, attorney Terranova “created [sic] a
counsel, attorney Peter Caruso,” to represent plaintiff, and he “abused the legal process” by
“[ijnitiating a trial without probable cause,” engineering the appointment of his friend attorney
Feinman as receiver, filing motions for default, and “fabricating” court judgments. Id. at 7. The
complaint alleges that all the defendants conspired to commit bank fraud, and that the Trust
“conspired in a silent way by not stopping” the three attorney defendants. Id. at 8. It concludes
that “[a]ll four defendants conspired against [her] to commit bank fraud.” Id.
The complaint purports to assert claims under 18 U.S.C. §§ 1341, 1343, and 1344, and
again invokes federal-question jurisdiction. See Compl. at 3. It seeks $15 million in damages
against each of the attorney defendants and $6 million in damages against the Trust.
II.

Discussion
A.

Subiect-Matter Jurisdiction

Federal courts are of limited jurisdiction, “and the requirement of subject-matter
jurisdiction ‘functions as a restriction on federal power.’” Fafel v. Dipaola, 399 F.3d 403, 410
(1st Cir. 2005) (quoting Ins. Corp. of Ireland v. Compagnie des Bauxites de Guinee, 456 U.S.
694, 702 (1982)). As a general matter, federal courts may exercise jurisdiction over civil actions
arising under federal laws, see 28 U.S.C. § 1331, and over certain actions in which the parties are
of diverse citizenship and the amount in controversy exceeds $75,000, see 28 U.S.C. § 1332.4
All three complaints invoke the court’s federal-question jurisdiction.
The complaints purport to assert claims arising under various federal criminal statutes:

4 Plaintiff here does not invoke the court’s jurisdiction under § 1332, nor does she purport to assert any
state-law claims. In any event, diversity of citizenship clearly does not exist between the parties in Sharma v.
Terranova, and there are no allegations in the other two complaints as to the citizenship of either Santander or
Fidelity; indeed, plaintiff left those portions of the form complaint blank.

7

sgr

Case l:19-cv-12220-FDS Document 11 Filed 02/25/20 Page 8 of 11

those creating the crimes of bank embezzlement, mail fraud, wire fraud, and bank fraud. Those
statutes do not, however, create a private right of action to bring a civil claim against an alleged
wrongdoer. See, e.g., Wisdom v. First Midwest Bank, ofPoplar Bluff 165 F.3d 402, 408 (8th
Cir. 1999) (holding that no private right of action exists under 18 U.S.C. §§ 1341 or 1343); Lowe
v. Viewpoint Bank, 972 F. Supp. 2d 947, 954-55 (N.D. Tex. 2013) (same, as to 18 U.S.C. § 656);
Milgrom v. Burstein, 374 F. Supp. 2d 523, 529 (E.D. Ky. 2005) (same, as to 18 U.S.C. § 1344).
Plaintiffs attempted assertion of a civil right of action under federal criminal statutes is
“so devoid of merit” as to call into question the existence of federal-question jurisdiction. See
Oneida Indian Nation ofN.Y. v. County of Oneida, 414 U.S. 661, 666 (1974) (stating that
dismissal for lack of subject-matter jurisdiction based on the inadequacy of the federal claim is
appropriate where the claim is “so insubstantial, implausible, foreclosed by prior decisions of
this Court, or otherwise completely devoid of merit as not to involve a federal controversy”);
Bell v. Hood, 327 U.S. 678, 682 (1946) (holding that dismissal for lack of jurisdiction is
appropriate if it is not colorable, that is, “immaterial and made solely for the purpose of obtaining
jurisdiction” or “wholly insubstantial and frivolous”); Steel Co. v. Citizens for a Better
Environment, 523 U.S. 83, 89 (1998); Merrell Dow Pharm Inc. v. Thompson, 478 U.S. 804, 817
(1986).
Unfortunately, the case law as to the “dichotomy” between lack of subject-matter
jurisdiction and failure to state a claim is often confused and inconsistent. Arbaugh v. Y&H
Corp., 546 U.S. 500, 511 (2006) (discussing how courts have been “less than meticulous” in
addressing the issue). Moreover, the court can never assume the existence of subject-matter
jurisdiction, but must make an affirmative decision as to its existence. Under the circumstances,
the Court concludes that the claims here—which, again, purport to assert civil causes of action

8

Case l:19-cv-12220-FDS Document 11 Filed 02/25/20 Page 9 of 11

arising out of federal criminal statutes—are sufficiently colorable to confer federal-question
jurisdiction, even if only barely so. The Court will therefore address the merits of the claims.
B.

Failure to State a Claim

The asserted claims present two obvious issues: the statute of limitations and claim
preclusion.5
1.

Statute of Limitations

Depending on how the claims are construed, they could be subject to a three, four, or sixyear period of limitations under Massachusetts law, which applies in this context. See Mass.
Gen. Laws ch. 260, §§ 2A (three-year statute of limitations for tort claims), 5A (four-year statute
of limitations for action for consumer claims under chapter 93A), and 2 (six-year statute of
limitations for breach of contract claims). Here, by her own representations, plaintiff knew at
least seven years before filing three lawsuits that she had been harmed by the alleged
misconduct. Thus, regardless of how her claims are construed, they are time-barred.
2. Claim Preclusion
All three cases involve claims that were, or should have been, raised in Sharma v.
Trustees of Andover Gardens Condo Trust, her earlier state court proceeding (which itself was
dismissed as time-barred). The new claims are therefore barred under principles of claim
preclusion.
The doctrine of claim preclusion, or res judicata, prohibits parties from contesting issues
that they have had a “full and fair opportunity to litigate.” Taylor v. Sturgell, 553 U.S. 880, 892

5 Although the statute of limitations and claim preclusion are affirmative defenses, and the Federal Rules of
Civil Procedure do not require a plaintiff to plead facts to avoid potential affirmative defenses, a complaint can be
dismissed for failure to state a claim if its allegations show that relief is barred by the defense. See Bock v. Jones,
549 U.S. 199,215 (2007).

9

Case l:19-cv-12220-FDS Document 11 Filed 02/25/20 Page 10 of 11

(2008). Claim preclusion requires proof of three elements: “(1) the earlier suit resulted in a final
judgment on the merits, (2) the causes of action asserted in the earlier and later suits are
sufficiently identical or related, and (3) the parties in the two suits are sufficiently identical or
closely related.” Airframe Sys., Inc. v. Raytheon Co., 601 F.3d 9, 14 (1st Cir. 2010). Those three
elements are clearly satisfied here.
First, plaintiff brought an earlier suit, which was dismissed by the court and not appealed.
That dismissal constitutes a final judgment on the merits for purposes of claim preclusion. See
Airframe, 601 F.3d at 14 (citing AVXCorp. v. Cabot Corp., 424 F.3d 28, 30 (1st Cir. 2005))
(holding that dismissal for failure to state a claim is “plainly a final judgment on the merits”).
Second, plaintiff’s claims all arise from the same basic allegation that the Trustees stole
money from her accounts at Santander Bank and Fidelity. Those claims either were actually
brought, or should have been brought, in the earlier action.
Third, the defendants in this suit are sufficiently identical or closely related to the
defendant named in the earlier suit such that principles of claim preclusion should apply.
Accordingly, because all three elements are satisfied, plaintiffs claims are barred by
principles of claim preclusion.
III.

Conclusion
For the foregoing reasons:
1.

Defendant’s motion to dismiss in Sharma v. Santander Bank, C.A. No. 19-12184FDS, is GRANTED and the action is DISMISSED.

2.

Sharma v. Fidelity Investments, C.A. No. 19-12186-FDS, is DISMISSED.

3.

Sharma v. Terranova, C.A. No. 19-12220-FDS, is DISMISSED.

10

Case l:19-cv-12220-FDS Document 11 Filed 02/25/20 Page 11 of 11

So Ordered.
/s/ F. Dennis Savior IV_____________
F. Dennis Saylor IV
Chief Judge, United States District Court

Dated: February 25, 2020

r

11

'■?

JV. -■

V

y-

Pro Se 1 (Rev. 09/16) Complaint for a Civil Case

United States District Court
for the
District of Massachusetts

Plainlff(s)
(Write the full name of each plaintiffwho is fling this complaint.
If the names ofall the plaintiffs cannot ft in the space above,
please write "see attached" in the space and attach an additional
page with the full list of names.)

-v-

L

W)Y)0hJjc s\ 7&RMVQ ^
QAtbfus c&t/bpfojNiyM
■9 • mrfi&u&'f
a. FG/ttnA+f!
P£T£Defendant(s)
(Write the full name of each defendant who is being sued. If the
names of all the defendants cannot ft in the space above, please
write “see attached” in the space and attach an additional page
with the full list of names.)

)
)
)
)
)
)
)
)
)

Case No.
(to be filled in by the Clerk‘s Office)

Jury Trial: (check one) j^| Yes Q No

)

- G'J
-..-4

)
)
)
)
)

-:to
Oo

«*

2:
O

!
;-o

rn

CO

Gom

O0
-n

-r\ -hi
r o

o
o-> cr

-.9

■Ji ;;o

*5

“Tt

o
m

\j..!

COMPLAINT FOR A CIVIL CASE
The Parties to This Complaint
A.

The Plaintiffs)
Provide the information below for each plaintiff named in the complaint. Attach additional pages if
needed.
Name
Street Address
City and County
State and Zip Code

lo &?£ /)u)me) J) f>\ Yrz
frU’hnMSR.;. l-CSB'h
mb Pi2tP

~i>%K

Telephone Number
E-mail Address

(Pori. C\mv)

The Defendant(s)
Provide the information below for each defendant named in the complaint, whether the defendant is an
individual, a government agency, an organization, or a corporation. For an individual defendant,
include the person's job or title (if known). Attach additional pages if needed.

Page 1 of 5

(fo- l/j(fj

Pro Se 1 (Rev. 09/16) Complaint for a Civil Case

Defendant No. 1
Name

a-rmRN&f 1)0 ft)EMC

£:

N)0 Jft

Job 01' Title (if known)

Street Address

M Mlti $rH£0T \

City and County

hiti Hr ft fytiJini-'Ajl : f Sffz X

State and Zip Code
Telephone Number

m fr

93-9- nr-i/ruo

E-mail Address (fknown)

Defendant No. 2
Name

bUMVZA

GrfytLT)£f?S Cmh&WMlfrV)

TRUST

Job or Title (ifknoM>n)
Street Address
City and County
State and Zip Code
Telephone Number

C(l£$CP.N.f d&ws

&hPbt’r££ - f’Pi-z'h
fY)A
cHy O

n<?

E-mail Address (fknown)

Defendant No. 3
Name

nrw(KiifiPH!

mcHf)6L ,6. F&kM/U-J

Job 01' Title (ifknown)
Street Address
City and County
State and Zip Code
Telephone Number

ik3> mftiw
A
A1A

Si
-j-

/

■~p-sex

Ol &iT>

17-9- U ff —

q

E-mail Address (ifknown)

Defendant No. 4
Name

iyrrp & wfjf

p&t£ it,

c a mss D

Job Or Title (ifknown)
Street Address

igf rQiUN STP&JEf

; BSSfrX

City and County
State and Zip Code
Telephone Number

ma

pi

Sih_____

Wfr- UTS'- 2-3. oc?

E-mail Address (ifknown)

Page 2 of 5

bib*)

Pro Se I (Rev. 09/16) Complaint for a Civil Cass

II.

Basis for Jurisdiction
Federal courts are courts of limited jurisdiction (limited power). Generally, only two types of cases can be
heard in federal court: cases involving a federal question and cases involving diversity of citizenship of the
parties. Under 28 U.S.C. § 1331, a case arising under the United States Constitution or federal laws or treaties
is a federal question case. Under 28 U.S.C. § 1332, a case in which a citizen of one State sues a citizen of
another State or nation and the amount at stake is more than $75,000 is a diversity of citizenship case. In a
diversity of citizenship case, no defendant may be a citizen of the same State as any plaintiff.
What is the basis for federal court jurisdiction? (check all that apply)
J^Federal question
j | Diversity of citizenship

Fill out the paragraphs in this section that apply to this case.
A.

If the Basis for Jurisdiction Is a Federal Question
List the specific federal statutes, federal treaties, and/or provisions of the United States Constitution that
are at issue in this case.

1.

i fqSCiSLfl/

2, fMHL

3>. mwrz

B.

/ tquscvlMl

G k3

If the Basis for Jurisdiction Is Diversity of Citizenship
1.

The Plaintiffs)
a.

If the plaintiff is an individual
, is a citizen of the

The plaintiff, (name)
State of (name)

b.

If the plaintiff is a corporation
, is incorporated

The plaintiff, (name)
under the laws of the State of (name)
and has its principal place of business in the State of (name)

(Ifmore than one plaintiff is named in the complaint, attach an additional page providing the
same information for each additional plaintiff.)
2.

The Defendant(s)
a.

If the defendant is an individual
, is a citizen of

The defendant, (name)

. Or is a citizen of

the State of (name)
(foreign nation)

Page 3 of 5

k2-

Pro Se 1 (Rev. 09/16) Complaint for a Civil Case

b.

Ifthe defendant is a corporation
The defendant, (name)

, is incorporated under

the laws of the State of (name)

, and has its

principal place of business in the State of (name)
Or is incorporated under the laws of (foreign nation)
and has its principal place of business in (name)
(Ifmore than one defendant is named in the complaint, attach an additional page providing the
same information for each additional defendant.)
3.

The Amount in Controversy
The amount in controversy-the amount the plaintiff claims the defendant owes or the amount at
stake-is more than $75,000, not counting interest and costs of court, because (explain):

III.

Statement of Claim
Write a short and plain statement of the claim. Do not make legal arguments. State as briefly as possible the
facts showing that each plaintiff is entitled to the damages or other relief sought. State how each defendant was
involved and what each defendant did that caused the plaintiff harm or violated the plaintiffs rights, including
the dates and places of that involvement or conduct. If more than one claim is asserted, number each claim and
write a short and plain statement of each claim in a separate paragraph. Attach additional pages if needed,

PusftSf

TV.

ro zucldsure. m: I

Relief
State briefly and precisely what damages or other relief the plaintiff asks the court to order. Do not make legal
arguments. Include any basis for claiming that the wrongs alleged are continuing at the present time. Include
the amounts of any actual damages claimed for the acts alleged and the basis for these amounts. Include any
punitive or exemplary damages claimed, the amounts, and the reasons you claim you are entitled to actual or
punitive money damages.

PL

Page 4 of 5

U?

Pro Se ) (Rev. 09/16) Complaint for a Civil Case

V.

Certification and Closing
Under Federal Rule of Civil Procedure 11, by signing below, I certify to the best of my knowledge, information,
and belief that this complaint: (1) is not being presented for an improper purpose, such as to harass, cause
unnecessary delay, or needlessly increase the cost of litigation; (2) is supported by existing law or by a
nonfrivolous argument for extending, modifying, or reversing existing law; (3) the factual contentions have
evidentiary support or, if specifically so identified, will likely have evidentiary support after a reasonable
opportunity for further investigation or discovery; and (4) the complaint otherwise complies with the
requirements of Rule 11.
A.

For Parties Without an Attorney
1 agree to provide the Clerk's Office with any changes to my address where case-related papers may be
served. I understand that my failure to keep a current address on file with the Clerk’s Office may result
in the dismissal of my case.
Date of signing:

ief *ri

Signature of Plaintiff
Printed Name of Plaintiff
B.

*y-

kfA

ftl ff

For Attorneys
Date of signing:
Signature of Attorney
Printed Name of Attorney
Bar Number
Name of Law Firm
Street Address
State and Zip Code
Telephone Number
E-mail Address

Page 5 of 5

